        March 3, 2006




 Acquisition
 Source Selection Procedures for the
 Navy Construction Capabilities
 Contract
 (D-2006-061)




This special version of the report has been revised to omit source selection sensitive or
contractor proprietary information.




                         Department of Defense
                        Office of Inspector General
   Quality                            Integrity                    Accountability
  Additional Copies

  To obtain additional copies of this report, contact Mr. Henry F. Kleinknecht at
  (703) 604-9324 (DSN 664-9324) or Mr. Patrick J. Nix at (703) 604-9332
  (DSN 664-9332).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
CCASS                 Construction Contractor Appraisal Support System
CEB                   Cost Evaluation Board
CONCAP                Construction Capabilities
DCAA                  Defense Contract Audit Agency
KBR                   Kellogg, Brown, and Root
NAVFAC                Naval Facilities Engineering Command
RFP                   Request for Proposal
SSP                   Source Selection Plan
TEB                   Technical Evaluation Board
                                 INSPECTOR GENERAL
                               DEPARTMEhTOFDEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON. VIRGINIA 22202-4704




                                                                                       March 3,2006

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTlCS
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on the Source Selection Procedures for the Navy Construction
         Capabilities Contract (Report No. D-2006-061)

       We are providing this report for information and use. We conducted the audit in
response to a request from Senator Ron Wyden. We considered management comments
on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324) or Mr. Patrick J. Nix at
(703) 604-9332 (DSN 664-9332). The team members are listed inside the back cover.
See Appendix B for the report distribution.
                                    By direction of the Deputy Inspector Feneral for Auditing:




                                          Assistant Inspector General
                                      Acquisition and Contract Management




                                         Special Warning
This special version of the report has been revised to omit source selection sensitive or contractor
proprietary information.
                Department of Defense Office of Inspector General
Report No. D-2006-061                                                         March 3, 2006
   (Project No. D2005-D000CH-0135.000)

                      Source Selection Procedures for the
                    Navy Construction Capabilities Contract

                                 Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the Military Departments should read this report because it concerns the
technical and cost evaluations used to support a “best value” award by the Navy for the
Construction Capabilities contract.

Background. This audit was performed in response to a request from Senator Ron
Wyden. The Senator requested that we review the award of the Navy Construction
Capabilities contract to Kellogg, Brown, and Root (KBR) despite numerous questions
raised by other DoD agencies about its performance under other DoD contracts. The
questions raised by the other DoD agencies related to KBR overcharging the
U.S. Government to purchase gasoline for Iraq, failing to provide a full and appropriate
accounting under a major DoD contract, and admitting that some of its employees in Iraq
had accepted bribes.

The Naval Facilities Engineering Command manages the planning, design, construction,
contingency engineering, real estate, environmental, and public works for U.S. Navy
shore facilities around the world. The Naval Facilities Engineering Command also
provides best value facilities engineering and acquisition support for the Navy and
Marine Corps, Unified Commanders, and Department of Defense agencies. The Naval
Facilities Engineering Command Atlantic Division awarded a cost-plus-award-fee,
indefinite-delivery, indefinite-quantity contract with an estimated ceiling of $500 million
to KBR on July 26, 2004, for emergency construction and engineering services. The
“best value” award for a 5-year period was based on an evaluation of cost and technical
merits where technical was considered more important than cost.

Results. Although we found nothing to indicate that the Construction Capabilities
contract should have been awarded to one of the other offerors, the source selection
procedures that the Naval Facilities Engineering Command used to support the decision
to award the contract to KBR had shortcomings that could be improved. Specifically, the
Naval Facilities Engineering Command did not develop adequate guidance to effectively
differentiate the technical evaluation factor rating intervals and failed to consider relevant
past performance information. Further, the Army and Navy had not input data related to
KBR past performance under the Logistics Civil Augmentation Program (worth an
estimated $13.2 billion) and Construction Capabilities contracts into their respective
automated contractor past performance collection systems. Finally, although we found
nothing improper with the Navy’s cost evaluation, we have reservation with not basing
the award decision, in part, on an evaluation of the offerors’ direct costs (the most
significant component of overall cost). The underlying documentation for the invoice
that KBR submitted in January 2005 for the Hurricane Ivan recovery effort causes us
concern about the ability of the Navy to obtain a fair and reasonable price for the labor
and material needed to accomplish the tasks associated with natural disaster recovery
efforts. The rates paid to some KBR subcontractors for labor were significantly higher
than the prevailing Bureau of Labor Statistics rates for the area impacted by the hurricane
(Pensacola, Florida). Although the Navy has provided possible reasons for the higher
rates, additional review needs to be performed before we are able to draw any
conclusions concerning the use of the Construction Capabilities contract to support these
efforts. We plan to evaluate the costs paid on task orders issued in response to natural
disasters in a follow-on audit.

The Navy needs to develop adequate guidance to effectively differentiate technical factor
rating intervals and to require technical evaluators to adequately describe their rationale
for the ratings assigned and perform comprehensive reviews of offerors’ past
performance during future source selection evaluations. In addition, the Army and Navy
need to enter the outstanding performance evaluations that meet threshold requirements
into their respective automated contractor past performance collection systems. Finally,
the Under Secretary of Defense for Acquisition, Technology, and Logistics needs to
collaborate with the Services to develop a best practices guide for technical evaluation
rating descriptions and issue guidance requiring that performance evaluations be
amended if information about a contractor’s performance under a specific task order
surfaces prior to overall contract closeout. See the Finding section of the report for the
detailed recommendations.

Management Comments and Audit Response. The Navy, Army, and the Under
Secretary of Defense for Acquisition, Technology, and Logistics concurred with the
finding and recommendations. The Director, Program Analysis and Business
Transformation for Deputy Assistant Secretary of the Navy for Acquisition stated the
Naval Facilities Engineering Command would no longer use pluses or minuses as a part
of their evaluation process, agreed to issue guidance to ensure future procurements
considered past performance information for the business units identified in offeror
proposals, and stated the Naval Facilities Engineering Command would enter all
outstanding past performance evaluations into the Construction Contractor Appraisal
Support System. However, the Director believed the Naval Facilities Engineering
Command’s procurement policy already required technical evaluators to adequately
describe the rationale for the rating assigned. The Army Field Support Command stated
that it would enter all outstanding past performance evaluations into the Past
Performance Information Retrieval System. Finally, the Director, Defense Procurement
and Acquisition Policy agreed to collaborate with the Military Departments to develop a
best practices guide for technical evaluation rating descriptions and agreed to issue
guidance emphasizing the importance of inputting contractor past performance
information into appropriate systems and the need to amend performance evaluations if
significant information about a contractor’s performance under a specific task order
surfaces prior to the overall contract being closed out.

Although we believe the Naval Facilities Engineering Command guidance should
provide more direction to technical evaluators on how to support the ratings assigned to
each offeror, the planned actions are acceptable. The Under Secretary of Defense for
Acquisition, Technology, and Logistics agreed to collaborate with the Military
Departments to develop a best practices guide for technical evaluation rating
descriptions.

See the Finding section of the report for a discussion of the management comments on
the finding and recommendations and our audit response, and the Management
Comments section of the report for the complete text of the comments.
                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objective                                                                     2

     Managers’ Internal Control Program                                       2

Finding
     Source Selection Procedures for the Navy Construction
        Capabilities Contract                                                 3

Appendixes
     A. Scope and Methodology                                                19
         Prior Coverage                                                      19
     B. Report Distribution                                                  21

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   23
     Department of the Army                                                  24
     Department of the Navy                                                  27
Background
    This audit was performed in response to a request from Senator Ron Wyden. The
    Senator requested that we review the award of the Navy Construction Capabilities
    (CONCAP) contract to Kellogg, Brown, and Root (KBR) despite numerous
    questions raised by other DoD agencies about KBR’s performance on other DoD
    contracts. The other DoD agencies had raised questions about KBR overcharging
    the U.S. Government to purchase gasoline for Iraq, failing to provide full and
    appropriate accounting under a major DoD contract, and admitting that some of
    its employees in Iraq had accepted bribes.

    Naval Facilities Engineering Command. The Naval Facilities Engineering
    Command (NAVFAC) manages the planning, design, construction, contingency
    engineering, real estate, environmental, and public works for U.S. Navy shore
    facilities around the world. NAVFAC also provides best value facilities
    engineering and acquisition support for the Navy and Marine Corps, Unified
    Commanders, and DoD agencies.

    CONCAP Contract. The NAVFAC Atlantic Division awarded a cost-plus-
    award-fee, indefinite-delivery, indefinite-quantity contract with an estimated
    ceiling of $500 million to KBR on July 26, 2004, for emergency construction and
    engineering services. The “best value” award for a 5-year period was based on an
    evaluation of cost and technical merits where technical was considered more
    important than cost. The CONCAP contract is the third in a series of contracts
    issued by NAVFAC to provide its customers with a worldwide rapid civilian
    construction and engineering services capability. The winning contractor is
    responsible for the supervision, equipment, materials, labor, and travel necessary
    to provide the Navy with an immediate civilian construction contract capability.
    The work performed in response to an emergency will primarily support aid for
    natural disasters, military conflict, or humanitarian relief efforts. The following is
    a list of tasks the contractor may be required to perform.
     • Dredging                           • Water well drinking             • Sewage treatment plant
     • Airfield runway construction or    • Garage disposal/recycling       • Road construction (asphalt,
        repair                               facilities                       concrete, engineered fill)
     • Airfield facilities construction   • Ammunition storage facilities   • Soils engineering
     • Administrative and                 • Warehouse facilities for        • Fire fighting facilities and
        educational facilities               construction materials           distribution systems
     • Hardened facilities and            • Warehouse facilities for        • Enemy containment and
       personnel bunkers                    other customers                   processing facilities
     • Electric power plant               • Pier construction               • Causeways
     • Communication facilities           • Bridges                         • Petroleum storage facilities
     • Electric power distribution        • Transportation depots for       • Petroleum handling pier
        systems                              materials                         facilities
     • Water treatment plant              • Rail facilities                 • Environmental restoration
     • Chemical, biological, and          • Facilities for equipment        • Operations of power asphalt
        radiological area                   dispatch, repair,                  generation, concrete and
        decontamination                     decontamination                    plants, etc.
     • Facilities for troop berthing      • Medical clinics/field
       and billeting                         hospitals




                                                  1
    Table 1 shows that, as of October 28, 2005, NAVFAC had issued 21 task orders
    worth approximately $295.6 million for work under the contract.

                            Table 1. CONCAP III Task Orders
     Task                                                         Date
     Order                             Title                    Awarded          Amount
       1     Navy Forces Central Command Contingency Plan        9/21/2004   $      625,000
       2     Hurricane Ivan Response, Pensacola                  9/17/2004       46,819,259
       3     Hurricane Ivan Response, Whiting Pines              9/21/2004          529,582
       4     Pacific Command, Counter Terrorism                  9/30/2004        4,438,351
       5     Pacific Command, Humanitarian Assistance            9/30/2004        1,787,038
       6     Planning Camp 6, Guantanamo Bay                     11/9/2004          125,000
       7     Planning, Djibouti, Africa                         12/14/2004          243,144
       8     Design Camp 6 and Fence, Guantanamo Bay             1/27/2005          975,000
       9     Psych Ward, Guantanamo Bay                           2/9/2005        2,922,765
      10     Obock Waterfront Facility                           4/14/2005          978,175
      11     Hurricane Planning Response, North Carolina          6/6/2005            5,000
      12     Repairs and Improvements, Guantanamo Bay             6/8/2005        1,576,485
      13     Build Camp 6 and Security Fence, Guantanamo Bay     6/16/2005       35,168,826
      14     Billeting Facilities and Fence, Djibouti, Africa    7/29/2005       27,324,903
      15     Navy Pier Assessment in Iraq                        8/18/2005          209,577
      16     Hurricane Katrina Response, SOUTH                   8/29/2005       67,961,021
      17     Hurricane Katrina Response, Southeast               8/30/2005       61,340,466
      18     Hurricane Katrina Response, New Orleans              9/4/2005          498,000
      19     Hurricane Katrina Response, Mortuary Team            9/8/2005       14,200,000
      20     Hurricane Katrina Response, Unwatering               9/9/2005       23,306,843
      22     Hurricane Katrina Response, Unwatering              10/2/2005        4,600,000

             Total                                                           $295,634,435



Objective
    Our overall audit objective was to review the decision to award the Navy
    CONCAP contract to KBR. We evaluated whether the concerns identified by
    DoD agencies were given proper weight in evaluating the KBR bid, whether KBR
    was inappropriately given a top score for past performance despite numerous
    problems identified with its work under other DoD contracts, whether the KBR
    past performance score affected the outcome of the contract award, and whether
    the decision to award KBR the contract provided the best value to the
    Government. Because the scope of our audit was limited to the specific concerns
    raised by Senator Wyden, we did not review the NAVFAC managers’ internal
    control program. See Appendix A for a discussion of the scope, methodology,
    and prior coverage related to the objective.




                                             2
                    Source Selection Procedures for the Navy
                    Construction Capabilities Contract
                    Although we found nothing to indicate that the CONCAP contract should
                    have been awarded to one of the other offerors, the source selection
                    procedures that NAVFAC used to support the decision to award the
                    contract to KBR had shortcomings that could be improved. Specifically,
                    NAVFAC did not:

                          •    develop adequate guidance to effectively differentiate the
                               technical evaluation factor rating intervals;1

                          •    consider relevant past performance information; or

                          •    evaluate the offerors’ direct costs, the most significant component
                               of overall cost.

                      In addition, the Army and Navy did not input data related to KBR’s
                      past performance under the Logistics Civil Augmentation Program
                      (valued at $13.2 billion) and the previous CONCAP contracts into their
                      respective automated contractor past performance collection systems. As
                      a result, actual technical factor ratings are difficult to justify, relevant
                      past performance information was not available, and available
                      information was not considered as a part of the source selection decision
                      process for a $500 million (ceiling) contract for rapid construction
                      services.


Proposal Evaluation
           The Naval Facilities Acquisition Supplement, dated March 2002, provides
           general guidance to field contracting officers in the execution of their delegated
           duties. The supplement implements the Federal Acquisition Regulation, Defense
           Federal Acquisition Regulation, and the Navy Acquisition Procedures
           Supplement. It is not a stand-alone document and must be read in conjunction
           with the Federal Acquisition Regulation, Defense Federal Acquisition Regulation,
           and Navy Acquisition Procedures Supplement. Collectively the documents
           provide guidance from requirements definition through solicitation, proposal
           evaluation, contract award, and execution of the contract through final closeout.

           Supplemental Guidance. In accordance with the supplement, NAVFAC
           developed a Source Selection Plan (SSP) and established a source selection
           organization, which included a Source Selection Authority and Source Selection,
           Technical Evaluation, and Cost Evaluation Boards. The Technical Evaluation
           Board (TEB) and Cost Evaluation Board (CEB) evaluated the proposals
           submitted. The Source Selection Board reviewed the TEB and CEB evaluation
1
    The evaluators were tasked to assign the offerors 1 of 15 possible rating increments (E+, E, E-, G+, G, G-
    , S+, S, S-, M+, M, M-, P+, P, P-) to represent how well their proposals met the requirements.



                                                       3
     results, weighed the technical merits against the cost of the offerors’ proposals,
     ranked the offerors’ proposals, and made a “best value” award recommendation to
     the Source Selection Authority.

     The SSP states that the offeror whose proposal was judged on technical and cost
     merits to be the “best value” to the Government would be awarded the contract.
     NAVFAC used the requirements and evaluation criteria from the solicitations
     developed to award the previous CONCAP contracts as the starting point for
     developing the evaluation criteria. The contracting officer stated the technical
     criteria were updated to reflect the latest guidance concerning the evaluation of
     safety and small business. The request for proposal (RFP) identified four factors
     (Corporate Experience, Past Performance, Emergency Response Plan, and
     Management Approach), all of equal importance and that when combined were
     more important than cost. NAVFAC also used a number of subfactors to evaluate
     how well the offerors met the evaluation criteria for the Past Performance and
     Management Approach factors. Table 2 shows an illustration of how the
     technical factors were more important than cost to the award decision.

                              Table 2. Evaluation Factors
      Technical Factors                                                       Weighting
       Factor 1: Corporate Experience
       Factor 2: Past Performance
          Subfactor 1: Past Performance
          Subfactor 2: Safety
       Factor 3: Emergency Response Plan                                        >50%
       Factor 4: Management Approach
          Subfactor 1: Organization, Home Office Support, and Key Personnel
          Subfactor 2: Accounting and Management Systems and Procedures
          Subfactor 3: Support for the Small Business Program
      Cost                                                                      <50%


Method to Differentiate Rating Intervals
     NAVFAC had not developed adequate guidance to effectively differentiate the
     technical evaluation factor rating intervals. The TEB used an adjectival rating
     system to show how well the proposals met the Navy’s technical requirements.
     The SSP instructed evaluators to assign offerors one of the following ratings for
     each technical factor and subfactor: “Excellent,” “Good,” “Satisfactory,”
     “Marginal,” and “Poor.” The SSP stated that offerors with no past performance
     were to be assigned “No Rating,” which was considered neither favorable nor
     unfavorable. The SSP also allowed the evaluators to include a plus (+) or minus
     (-) with their ratings.

     Although the SSP contained general rating descriptions that applied to all
     technical evaluation factors, it failed to provide the technical evaluators with an
     effective method to translate the strengths and weaknesses that they noted with
                                             4
each offeror’s proposal into 1 of the 15 possible rating intervals (excluding no
rating). In addition, the rating descriptions did not provide any guidance on when
the use of a plus or minus was appropriate. Consequently, the evaluators
subjectively determined which rating interval they believed best reflected how
well the offerors’ technical proposals met the Navy’s technical criteria. Table 3
shows the descriptions that NAVFAC included in the SSP for each rating.

               Table 3. Technical Evaluation Rating Descriptions
 Excellent - Proposal demonstrates thorough and detailed understanding of
 requirements. Technical approach and capabilities significantly exceed performance
 and capability standards. Proposal offers one or more strengths. Strengths
 significantly outweigh weaknesses. The proposal represents a high probability of
 success with no apparent risk in meeting the Government’s requirements.
 Good - Proposal demonstrates good understanding of requirements. Technical
 approach and capabilities exceed performance and capability standards. Proposal
 offers one or more strengths. Strengths outweigh any weaknesses. The proposal
 represents a strong probability of success with overall low degree of risk in meeting the
 Government’s requirements.
 Satisfactory - Proposal demonstrates acceptable understanding of requirements.
 Technical approach and capabilities meet performance and capability standards.
 Proposal offers no strengths, or, if there are any strengths, these strengths are offset
 by weaknesses. The proposal represents a reasonable probability of success with
 overall moderate degree of risk in meeting the Government’s requirements.
 Marginal - Proposal demonstrates a limited understanding of requirements. Technical
 approach and capabilities are questionable as to whether or not they meet performance
 and capability standards necessary for acceptable contract performance. Proposal
 contains weaknesses and offers no strengths, or, if there are any strengths, these
 strengths are outweighed by weaknesses. The proposal represents a low probability of
 success with overall high degree of risk in meeting the Government’s requirements.
 Proposal might be made satisfactory with additional information and without a major
 revision of the proposal.
 Poor - Proposal demonstrates a lack of understanding of requirements. Technical
 approach and capabilities do not meet performance and capability standards necessary
 for acceptable contract performance. Proposal contains major errors, omissions,
 significant weaknesses and/or deficiencies. The proposal represents a very low
 probability of success with an extremely high degree of risk in meeting the
 Government’s requirements. Proposal could only be made satisfactory with major
 revision of proposal.
 No Rating - If the offeror has no past performance, this rating will apply and is
 considered neither favorable nor unfavorable.




                                              5
           Table 4 shows the technical evaluation ratings given to each offeror.

                                 Table 4. Offerors’ Technical Ratings
                Criteria                                                              *      *       *
                 Corporate Experience
                 Past Performance
                     Past Performance
                     Safety
                 Emergency Response Plan
                 Management Approach
                     Organization, Home Office Support, and Key Personnel
                     Accounting and Management Systems and Procedures
                     Support for the Small Business Program
                          Overall Rating
                * Data omitted because it is source selection sensitive or contractor proprietary.

           The TEB concluded * .

           We asked the evaluators how they determined which rating interval best reflected
           how well an offeror’s technical proposal met the evaluation criteria. The
           evaluators stated they reviewed the proposals and identified the strengths (the
           approach proposed by an offeror exceeded or positively impacted a technical
           requirement) and weaknesses (the approach proposed by an offeror failed to meet
           or adversely impacted a technical requirement) of each proposal for their
           respective factors or subfactors. The evaluators then assigned the offerors ratings,
           based on their assessment of the impact that the strengths and weaknesses had
           on the offerors’ ability to achieve the quality, schedule, and cost objectives.
           However, due to insufficient guidance and the subjectivity of this process,
           inconsistencies occurred in how the evaluators assigned the offerors’ ratings.

           Corporate Experience Factor. Although the evaluator’s ordering appears
           reasonable based on the strengths and weaknesses noted, we were unable to
           determine whether the actual ratings assigned are appropriate due to insufficient
           guidance, the subjectivity of the rating methodology, and the failure to fully
           explain the rationale for each offeror’s rating. In accordance with the RFP, the
           offerors provided a narrative on 25 specific projects they had completed to
           demonstrate their construction experience. Based on the strengths and
           weaknesses noted with each offeror’s demonstrated work history, the evaluator
           assigned * .

           Past Performance Factor. The offerors’ overall Past Performance factor ratings
           were derived in accordance with the RFP from their two subfactor scores. As
           such, any procedural problems that the evaluators had in the manner in which
           they assigned the subfactor ratings carried forward to the offerors’ overall ratings.

*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.


                                                         6
                   Past Performance Subfactor. The evaluator for the Past Performance
           subfactor did not use an effective method to derive each offeror’s technical rating.
           The TEB sent questionnaires to the references that the offerors provided for the
           25 projects they used to demonstrate their construction experience. The TEB also
           extracted any performance evaluations that had been input in the Construction
           Contractor Appraisal Support System2 (CCASS) for the business unit that each
           offeror used to submit its proposal. In accordance with the RFP, the evaluator
           used the questionnaires that references completed and sent back, the CCASS
           performance evaluations, as well as customer letters of commendation and awards
           that offerors provided to derive each offeror’s rating. According to the evaluator,
           the questionnaires, the CCASS search results, and the customer letters of
           commendation and awards affected, in descending order of importance, the rating
           given to an offeror. Table 5 shows the information used by the evaluator and the
           rating given to each offeror.

                             Table 5. Past Performance Evaluation Criteria and Rating
                                                                             CCASS
                                         Questionnaires               Performance Evaluations        Awards and
                                Quantity*         Rating1*         Quantity*          Rating2*     Commendations*
                     *



                     *



                     *

                1
                    Possible questionnaire ratings: Excellent, Good, Satisfactory, Marginal, and Poor.
                2
                    Possible CCASS ratings: Outstanding, Above Average, Satisfactory, Marginal, and Poor.
                3
                    The offeror’s reference rated Fluor between Excellent and Good.
                * Data omitted because it is source selection sensitive or contractor proprietary.



           We fail to see how the offerors’ ratings were derived using the methodology
           described by the evaluator, and the evaluator provided no written rationale
           supporting the final rating. For example, * . The evaluator stated the * rating was
           adjusted because of comments that were made on their questionnaire surveys.
           However, the evaluator did not provide written explanation supporting


2
    The CCASS is an automated centralized database containing a 6-year history of performance evaluations
    for construction contractors. The Navy Marine Corps Acquisition Regulation Supplement requires the
    data contained in CCASS to be used in procuring construction contractor services.
*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.




                                                             7
           adjustments to the offeror’s rating due to comments made on the questionnaire
           surveys. Further, the customers should have incorporated the impact of their
           comments into the overall ratings they gave. Thus, modifying the rating may
           jeopardize the offeror twice or provide the offeror with double credit.

                   Safety Subfactor. Although the evaluator’s ordering appears to be
           reasonable, we were unable to determine whether the actual ratings assigned are
           appropriate due to the subjectivity of the rating methodology. In accordance with
           the RFP, the offerors submitted their insurance company’s experience
           modification ratings; their Occupational Safety and Health Act lost work days;
           their Occupational Safety and Health Act recordable incidents rate; and any
           Federal, State, and Occupational Safety and Health Act violations they had for the
           last 5 years. Although the RFP provided supplemental guidance to assign each
           offeror a technical rating for each of the safety subcategories, it failed to address
           adequately the 15 rating intervals and provided no guidance on how to translate
           an offeror’s safety subcategory ratings into an overall rating. Thus, the evaluator
           subjectively assigned * .

           Emergency Response Plan Factor. Although the evaluator’s ordering appears
           reasonable based on the strengths and weaknesses noted, we were unable to
           determine whether the actual ratings assigned are appropriate due to the
           subjectivity of the rating methodology and the insufficient rating guidance for the
           15 possible rating intervals. In accordance with the RFP, the offerors provided a
           narrative that discussed their efforts to minimize the time needed to respond to an
           emergency, including their ability to obtain material and a labor workforce.
           Based on the narratives provided, the evaluator assigned * . However, the
           evaluator did not provide a sufficient justification to support each of the offeror’s
           respective ratings.

           Management Approach Factor. The evaluator derived the offerors’ overall
           Management Approach factor ratings in accordance with the RFP from their three
           subfactor scores. As such, any procedural problems that the evaluators had in the
           manner in which they assigned the subfactor ratings carried forward to the
           offerors’ overall ratings.

                   Organization, Home Office Support, and Key Personnel Subfactor. In
           accordance with the RFP, the offerors provided a narrative that discussed the
           roles, responsibilities, authorities, and chain of command for the organizational
           structure and key positions required to implement their proposed management
           approach. Based on the narratives provided, the evaluator for the Organization,
           Home Office Support, and Key Personnel subfactor assigned * . Although the
           evaluator’s ordering appears reasonable based on the strengths and weaknesses
           noted, we were unable to determine whether the actual ratings assigned are
           appropriate due to the subjectivity of the rating methodology, insufficient
           guidance, and failure to fully explain the rationale for each offeror’s rating.

                 Accounting and Management Systems and Procedures
           Subfactor. The evaluator who reviewed the Accounting and Management

*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.

                                                         8
           Systems and Procedures subfactor also failed to adequately describe the rationale
           for each offeror’s rating. The RFP identified 10 financial and managerial systems
           that prospective offerors were to discuss in the submissions for the subfactor.
           Each offeror submitted the requested information to the Defense Contract Audit
           Agency (DCAA). A representative from DCAA gathered the most current
           information available on each offeror’s systems and provided the information to
           NAVFAC. Table 6 shows the summary information that NAVFAC received on
           each offeror’s systems.

                     Table 6. Accounting and Management Systems and Procedures
                                                                         System Status
                System                                       *                 *                    *
                Accounting
                General Information Technology
                Budget and Planning
                Purchasing
                Material
                Compensation
                Labor
                Indirect and Other Direct Costs
                Billing
                Estimating
            *

            * Data omitted because it is source selection sensitive or contractor proprietary.

           The DCAA representative also provided NAVFAC with detailed narratives on the
           degree to which each offeror’s systems were adequate and compliant with
           Government regulations and standards and assisted in controlling cost. *

                   Support for the Small Business Program Subfactor. Although the
           evaluator’s ordering appears reasonable based on the strengths and weaknesses
           noted, we were unable to determine whether the actual ratings assigned are
           appropriate due to the subjectivity of the rating methodology, insufficient
           guidance, and failure to fully explain the rationale for each offeror’s rating. In
           accordance with the RFP, the offerors provided narratives discussing how they
           used the Small Business Program in the past and how they intended to use the
           program during the performance of the CONCAP contract. Based on the
           narratives, the evaluator assigned * .

           Technical Evaluation Guidance. NAVFAC needs to develop adequate guidance
           to effectively differentiate technical evaluation factor rating intervals used in
           future source selection evaluations and require technical evaluators to adequately
           describe the rationale for the rating interval assigned. The Under Secretary of
           Defense for Acquisition, Technology, and Logistics should also collaborate with


*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.



                                                         9
           the Services to develop a best practices guide for technical evaluation rating
           descriptions.


Relevant Past Performance Information
           The TEB did not consider relevant performance as part of the source selection
           procedures. In accordance with the established procedures, the TEB extracted
           performance evaluations contained in CCASS. However, according to the
           contracting officer, the individual who extracted the evaluations only queried the
           system for projects completed by the business unit that each offeror used to
           submit its proposal. As a result, the TEB failed to consider the performance of a
           number of business units that the offerors had proposed to perform work under
           the contract. To determine the effect that not performing a comprehensive past
           performance review had on the offerors’ ratings, we extracted from CCASS the
           evaluation reports that were prepared for construction projects completed by all
           business units that the offerors proposed to perform work under the contract.
           Using a weighted average approach, we calculated that the past performance
           ratings for * .




*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.

                                                        10
           Table 7 shows that if the evaluators had used the CCASS performance
           evaluations for the construction projects completed by all the business units
           identified by the offerors, the TEB may have reached a different conclusion on
           the offerors’ past performance.

                                Table 7. Offerors’ Rating Using Available
                                   CCASS Performance Assessments
                                 Offeror       Rating          Qty* Weight Total*
                                    *    Outstanding                x 5 =
                                         Above Average              x 4 =
                                         Satisfactory               x 3 =
                                         Unsatisfactory             x 1 =
                                Rating              *                    *       =
                                     *     Outstanding               x       5   =
                                           Above Average             x       4   =
                                           Satisfactory              x       3   =
                                           Marginal                  x       2   =
                                           Unsatisfactory            x       1   =
                                Rating              *                    *
                                     *     Outstanding               x       5 =
                                           Above Average             x       4 =
                                           Satisfactory              x       3 =
                                Rating              *                  *
                                * Data omitted because it is source selection
                                sensitive or contractor proprietary.

           Based on our analysis of the available CCASS ratings, we believe limiting the
           assessment of performance to only projects completed by the business unit that
           each offeror used to submit its proposal may lead to an unrealistic opinion of the
           offerors’ ability to successfully fulfill the requirements of the solicitation. The
           TEB evaluator assigned * using our analysis. NAVFAC needs to perform a more
           comprehensive review of offerors’ past performance in future source selection
           evaluations.


Cost Evaluation
           NAVFAC did not evaluate the offerors’ direct costs, which are the most
           significant components of overall cost. The Acquisition Director stated the CEB
           did not evaluate the costs because NAVFAC has been unable to identify an
           effective method to evaluate direct costs given the contingent nature of this
           contract and because NAVFAC believed the direct costs would be similar
           regardless of which offeror received the award. According to a member of the
           source selection organization, the costs would be similar because all the offerors

*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.



                                                        11
           would be using the same labor and material pools to satisfy the requirements of
           the task orders issued under the contract.

           Table 8 shows the breakout of the total cost of each offeror’s proposal as
           determined by the CEB.

                                       Table 8. Cost Evaluation
             Direct Costs                          *                 *                  *
              Labor                           $ 60,000,000      $ 60,000,000       $ 60,000,000
              Material                          30,000,000        30,000,000         30,000,000
              Equipment                         15,000,000        15,000,000         15,000,000
              Subcontractors                   100,000,000       100,000,000        100,000,000
              Other Direct Costs                 2,500,000         2,500,000          2,500,000
              Travel                             5,000,000         5,000,000          5,000,000
                Subtotal                      $212,500,000      $212,500,000       $212,500,000
               Percent of Total Cost               *                  *                  *
             Indirect Costs                        *                  *                  *
              Labor Overhead
              Material Overhead
              General and Administrative
              Cost of Facilities Capital               -                  -                  -
              Proposed Award Fee
                 Subtotal
               Percent of Total Cost
                Total Cost
            * Data omitted because it is source selection sensitive or contractor proprietary.

           Based on the results of its evaluation, the CEB concluded the total cost proposed
           by KBR was approximately *. Although we found nothing improper with the
           Navy’s cost evaluation, we have reservations with basing the award decision
           solely on an evaluation of the offerors’ indirect costs. Those costs represent less
           than * percent of the total cost proposed by each offeror and only * of the * of
           costs shown on the January 2005 invoice that KBR submitted for Hurricane Ivan
           recovery efforts. Further, underlying documentation that KBR submitted for the
           invoice leads us to believe that unless the Navy reviews direct costs, it will be
           difficult to economically repair infrastructure damaged by natural disasters. The
           Navy did an effective job ensuring that KBR satisfactorily performed the work to
           the Government’s specification in the least number of hours; however, we are
           concerned with the ability of the Navy to obtain a fair and reasonable price for the
           labor and material needed to accomplish the tasks associated with these efforts.




*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.

                                                           12
           Table 9 shows the rates paid to some KBR subcontractors for labor were
           significantly higher than the prevailing Bureau of Labor Statistics rates for the
           area impacted by the hurricane (Pensacola, Florida).

                                       Table 9. Direct Labor Comparison
                                                              Hourly       Bureau of Labor         Percent
                      Occupation           Total Cost *       Rate *       Statistics Rate†      Difference *
             Roofer                                                            $25.59
             Roofer/Carpenter/Laborer                                           28.65
             Construction Manager                                               60.74
             Dump Operator                                                      29.34
             Loader Operator                                                    25.04
             Excavator Operator                                                 25.04
             Track Loader Operator                                              25.04
             Crane Operator                                                     27.59
             Laborer                                                            23.61
             Inspector                                                          32.40
             Pipefitter/Welder                                                  33.72
             Service Technician                                                 34.24
            † The rates shown are the rates that persons received whose pay was in the top 10 percent
              of their respective occupations in the Pensacola area according to the Bureau of Labor
              Statistics.
            * Data omitted because it is source selection sensitive or contractor proprietary.

           According to members of the source selection organization, the rates paid to the
           KBR subcontractors *. The source selection members also stated that prices are
           often higher for work performed during natural disasters because the Navy has to
           compete with other Federal, State, and local Government and private sector
           entities, as well as private citizens, for the same labor and material to repair its
           damaged infrastructure. The source selection members stated “the Government
           utilizes [the] contract award fee, past performance evaluations, task order award
           decisions, and the determination of whether or not to exercise option years to
           encourage effective cost control and contract performance.” Nonetheless, we are
           concerned that the incentive may be insufficient to encourage KBR to obtain the
           lowest possible direct labor and material rates from its subcontractors. The total
           award fee pool available to KBR increases as total estimated cost increases.
           Thus, higher rates mean higher total potential profit for KBR. For example, if
           KBR can earn * on the total cost, and laborers make * an hour to perform a job,
           KBR has the potential to earn * for each hour the laborers require to complete the
           job. However, if laborers make * an hour, the profit KBR can potentially earn
           increases to * for each hour required. Although the Navy has provided possible
           reasons for the higher rates, additional review needs to be performed before we
           are able to draw any conclusions concerning the reasonableness of the rates. We
           plan to evaluate the costs paid on task orders issued in response to natural
           disasters in a follow-on audit.

*
    This section of the report contains source selection sensitive or contractor proprietary information that has
    been omitted.


                                                        13
Automated System to Track Past Performance Information
           Federal Acquisition Regulation Subpart 42.15, “Contractor Performance
           Information,” provides policies and establishes responsibilities for recording and
           maintaining contractor performance information. It defines past performance
           information as relevant information for future source selection purposes regarding
           a contractor’s actions under previously awarded contracts. It includes the
           contractor’s record of conforming to contract requirements; the contractor’s
           record of forecasting and controlling costs; the contractor’s adherence to contract
           schedules, including the administrative aspects of performance; the contractor’s
           history of reasonable and cooperative behavior and commitment to customer
           satisfaction; and generally, the contractor’s businesslike concern for the interest
           of the customer. A November 20, 1997, Under Secretary of Defense (Acquisition
           and Technology) policy memorandum entitled “Collection of Past Performance
           Information in the Department of Defense,” emphasizes that automating the
           collection and retrieval of past performance information is critical to obtaining
           best value services.

           The Army and Navy issued supplemental guidance relating to the preparation,
           collection, and maintenance of performance evaluations reports. Naval Facilities
           Command Instruction 4335.4, “Construction Contractor Performance
           Evaluation,” dated March 20, 2000, requires contract administrators to prepare
           and enter performance evaluations for all contracts and task orders of $100,000 or
           more into CCASS. Army Federal Acquisition Regulation Supplement Subpart
           5142.15, “Contractor Performance Information,” requires performance reports to
           be prepared, entered, and maintained in the Army Past Performance Information
           Management System for service contracts valued at more than $1 million and
           construction contracts valued at more than $500,000.
           Contractor Past Performance Information. The Army and Navy failed to
           input data relevant to KBR past performance under the Logistics Civil
           Augmentation Program (a contract worth an estimated $13.2 billion) and
           CONCAP contracts into their respective automated contractor past performance
           collection systems in a timely manner. Consequently, the Past Performance
           Information Retrieval System3 did not contain the complete evaluation history of
           the offerors’ work performance.
                   Army Logistics Civil Augmentation Program Contract. The Army
           failed to input the evaluations it conducted of performance of KBR under the
           Logistics Civil Augmentation Program contract, the contract impacted by the
           KBR employees who accepted kickbacks. The Logistics Civil Augmentation
           Program provides the Army logistical and engineering services such as food
           preparation, laundry, housing, and construction in support of contingency
           operations.



3
    The Past Performance Information Retrieval System provides the Federal acquisition community the
    ability to query past performance reports on contractors of the entire Federal Government for use in
    making source selection decisions.

                                                      14
As Table 10 shows, as of November 2, 2005, the Army had input the evaluation
for only 1 of the 36 task orders issued to KBR under the program that exceeded
the dollar threshold into its past performance feeder system, despite the majority
of the task orders being completed prior to 2005.

       Table 10. Available KBR Past Performance Information Under the
                Logistics Civil Augmentation Program Contract
Task                      Completion    In   Task                 Completion
Order       Amount           Date     System Order    Amount        Date     In System
  6         $5,000,000      4/18/2003   No    43   $1,207,725,524 1/31/2005      No
  7          1,784,798      8/17/2002   No    44      579,004,462 10/7/2004      No
  9          2,681,572      2/16/2003   No    45        2,827,786 1/30/2005      No
 10         11,045,403     12/31/2002   No    46       79,435,157 4/21/2005      No
 13        186,237,127     10/19/2004   No    47       52,305,045   3/1/2005     No
 14        122,066,372     11/17/2004   No    50       34,879,991 4/10/2004      No
 15         55,081,423      9/22/2004   No    53       33,984,986 6/15/2005      No
 16          1,245,479     10/31/2004 Yes     56      142,668,182 5/29/2005      No
 27        254,747,447      1/15/2005   No    57      304,553,795 5/25/2005      No
 28         16,874,886      3/15/2005   No    58      235,976,475   6/3/2005     No
 31          2,042,767       2/4/2003   No    59    6,263,143,258 4/30/2005      No
 33         43,924,053      8/15/2003   No    60        7,641,921 10/17/2004     No
 34         65,689,824       1/4/2005   No    61      233,520,419 10/1/2004      No
 35         33,070,035       2/1/2004   No    64       31,700,000   8/8/2004     No
 36*       209,555,515     12/30/2004   No    72        1,702,430 3/31/2005      No
 40         44,297,303       8/2/2003   No    75        4,284,990 12/29/2004     No
 41          2,943,972     11/30/2003   No    77        1,372,891 7/30/2004      No
 42         29,533,453      4/30/2003   No    81       32,205,798 6/30/2005      No
*
    This is the task order that was impacted by the KBR employees who accepted kickbacks.


We contacted representatives from the Logistics Civil Augmentation Program’s
Contracting Branch to determine why the evaluation had not been input into the
Army’s past performance feeder system. According to the Contracting Branch
representatives, the KBR evaluations were not timely performed due to staffing
issues. The Contracting Branch representatives further stated that they had
initiated corrective action and expected the evaluations would be finalized and
entered into the system by February 2006.
        Navy CONCAP Contract. The Navy did not input the evaluations for
9 of the 23 completed task orders issued to KBR under the previous CONCAP
contract that were valued at more than $100,000. According to the contracting
officer, the customers had not completed their assessment of KBR’s performance
for seven of the task orders.

       Performance Evaluations Need to be Completed. To assist others in
making future source selection decisions, the Army and Navy need to complete
and input outstanding KBR performance evaluations into their respective past
performance feeder systems.




                                               15
    Performance Information Surfacing After Contract Closeout. We also
    determined that performance evaluations are not revised or annotated when
    significant information surfaces about a contractor’s performance after a task
    order contract has been closed out, but prior to the overall contract closeout. For
    example, KBR reported that some of its employees accepted kickbacks while
    performing work on an Army task order contract in Iraq. Although
    representatives from the Logistics Civil Augmentation Program Contracting
    Branch agreed tracking such events would be useful to determine whether their
    occurrence was isolated or a systematic problem with a company’s corporate
    culture, there is no requirement to do so. Because the Army went back and
    annotated the evaluation for the task order impacted by the KBR employee acts as
    a result of our discussions, we are not making any recommendations to the Army
    concerning this issue. However, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics needs to issue guidance requiring performance
    evaluations be amended if significant information about a contractor’s
    performance under a specific task order surfaces prior to the overall contract
    closeout.


Management Comments on the Finding and Audit Response
    Availability of Past Performance Information. The Army Field Support
    Command stated that CONCAP reviewed the CCASS. Because the Logistics
    Civil Augmentation Program is a service contract, no information would have
    been in the CCASS.

    Audit Response. Although the Logistics Civil Augmentation Program is a
    service contract, some of the tasks that could be performed under the CONCAP
    contract are similar to those performed under the Logistics Civil Augmentation
    Program. The Past Performance Information Retrieval System has the ability to
    query all feeder systems, including the Army’s for relevant past performance
    information. Thus, if the Army’s performance evaluations had been timely
    completed and entered into the Army’s Past Performance Information
    Management System, the Navy source selection team could have used the Past
    Performance Information Retrieval System to retrieve any information that was
    relevant for their use.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend the Commander, Naval Facilities Engineering Command
    issue guidance to require that contracting personnel:
           a. Develop adequate guidance to effectively differentiate technical
    evaluation factor rating intervals used in future source selection evaluations
    and require technical evaluators to adequately describe the rationale for the
    rating interval assigned.

                                        16
Management Comments. The Director, Program Analysis and Business
Transformation for Deputy Assistant Secretary of the Navy for Acquisition
concurred and stated that NAVFAC agreed that the use of a plus or minus in
conjunction with an adjectival rating system weakens the evaluation process.
Consequently, NAVFAC will no longer use a plus or minus in the adjectival
rating system. The Director also stated that NAVFAC policy requires registered
professional engineers to serve on technical evaluation boards to ensure that the
technical evaluators have the expertise necessary to evaluate technical proposals
and perform a qualitative analysis of the strengths and weaknesses of each
proposal. Identifying all possible strengths and weaknesses and incorporating
those possibilities into predefined evaluation criteria and ratings in advance of the
procurement is problematic and weakens, not strengthens, the evaluation process.
The Comptroller’s overriding concern is that the final results accurately reflect
the actual merits of the proposal, not that the results be mechanically traceable
back to isolated comments or ratings of individual evaluators. Accordingly,
NAVFAC procurement policy already requires technical evaluators to adequately
describe the rationale for the rating assigned.

Audit Response. Although we believe the Naval Facilities Engineering
Command guidance should provide more direction to technical evaluators on how
to support the ratings assigned to each offeror, the planned actions are acceptable.
The Under Secretary of Defense for Acquisition, Technology, and Logistics
agreed to collaborate with the Military Departments to develop a best practices
guide for technical evaluation rating descriptions.

      b. Perform more comprehensive reviews of offerors’ past
performance in future source selection evaluations.
Management Comments. The Director, Program Analysis and Business
Transformation for Deputy Assistant Secretary of the Navy for Acquisition
concurred and stated that NAVFAC agrees that the past performance evaluation
should have included information for related business units set forth in the
proposal. Consequently, NAVFAC will issue guidance by March 10, 2006, to
ensure that future procurements consider past performance information for related
business units identified in the proposal.
      c. Enter outstanding CONCAP task order performance evaluations
that meet the threshold requirements into the Construction Contractor
Appraisal Support System.
Management Comments. The Director, Program Analysis and Business
Transformation for Deputy Assistant Secretary of the Navy for Acquisition
concurred and stated that NAVFAC expects to have all outstanding past
performance evaluations entered into CCASS by March 10, 2006.

2. We recommend the Commanding General, U.S. Army Field Support
Command require that contracting personnel enter outstanding Logistics
Civil Augmentation Program task order performance evaluations that meet
the threshold requirements into the Army’s past performance feeder system.




                                     17
Management Comments. The Army Field Support Command concurred and
stated that 34 of the 36 task orders listed in Table 10 of the report have been
entered into the Past Performance Information Retrieval System. The Army Field
Support Command anticipates the two remaining task orders will be entered into
the Past Performance Information Retrieval System by February 27, 2006.

3. We recommend the Under Secretary of Defense for Acquisition,
Technology, and Logistics:
       a. Collaborate with the Services to develop a best practices guide for
technical evaluation rating descriptions.
Management Comments. The Director, Defense Procurement and Acquisition
Policy concurred and will collaborate with the Military Departments to develop a
best practices guide for technical evaluation rating descriptions. The guide is
expected to be available to the acquisition workforce by July 1, 2006.

       b. Issue guidance that emphasizes the importance of inputting
contractor past performance information into appropriate systems and the
need to amend performance evaluations if significant information about a
contractor’s performance under a specific task order surfaces prior to
overall contract closeout.
Management Comments. The Director, Defense Procurement and Acquisition
Policy concurred and agreed to issue the appropriate guidance. The expected date
of issuance is April 7, 2006.




                                   18
Appendix A. Scope and Methodology
     We reviewed the procedures and documentation used to support the Navy
     decision to award the CONCAP contract to KBR. The award evaluation was
     performed at NAVFAC Atlantic, Virginia. The dates of the documentation
     reviewed ranged from February 1995, the date of the previous CONCAP contract
     SSP, through October 2005, the date of the most recent task order. We reviewed
     the evaluation criteria contained in the RFP. We also reviewed applicable
     guidance related to source selections. Additionally, we interviewed technical
     evaluators from NAVFAC Atlantic to evaluate the strengths and weaknesses
     documented on the technical evaluations. We also interviewed representatives
     from NAVFAC Southern Division, South Carolina. Furthermore, we reviewed
     the SSP to determine how the offerors’ past performance was assessed.

     We performed this audit from May 2005 through December 2005 in accordance
     with generally accepted government auditing standards.

     Use of Computer-Processed Data. We used computer-processed data to
     determine if NAVFAC obtained all information available to assist in its past
     performance evaluation of the CONCAP source selection. We extracted
     computer-processed data from the Past Performance Information Retrieval
     System and compared that data with data contained in the performance
     evaluations obtained from NAVFAC Atlantic. We concluded that the data
     contained in the Past Performance Information Retrieval System performance
     evaluations were reliable. We did not find any errors in the data that would
     prohibit the use of the data or that would change the conclusion of this report.

     Use of Technical Assistance. We consulted with Quantitative Methods analysts
     concerning the adjectival rating system that NAVFAC adopted for selecting the
     source to satisfy the CONCAP requirements.

     Government Accountability Office High-Risk Area. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the Defense Contract Management high-risk area.


Prior Coverage
     During the last 5 years, the Government Accountability Office issued two reports
     discussing the CONCAP contract. Unrestricted Government Accountability
     Office reports can be accessed over the Internet at http://www.gao.gov.

General Accountability Office
     Government Accountability Office Report No. GAO-04-854, Military Operations:
     “DoD’s Extensive Use of Logistics Support Contracts Requires Strengthened
     Oversight,” July 19, 2004



                                          19
Government Accountability Office Report No. GAO-04-869T, “Contract
Management: Contracting for Iraq Reconstruction and for Global Logistics
Support,” June 15, 2004




                                  20
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commanding General, U.S. Army Materiel Command
  Commanding General, U.S. Army Field Support Command

Department of the Navy
Assistant Secretary of the Navy (Research, Development and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command
  Commander, Naval Facilities Engineering Command, Atlantic
  Commander, Naval Facilities Engineering Command, Southern Division

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency




                                          21
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       23
Department of the Army Comments




                    24
25
26
Department of the Navy Comments
                                  Final Report
                                   Reference




                                  Enclosure 2
                                  was not
                                  included in
                                  report




                    27
28
29
30
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Henry F. Kleinknecht
Patrick J. Nix
Jason T. Steinhart
Michael B. Vandesteene
Jillian M. LaLonde
Meredith Johnson
Jillisa H. Milner
